2311 Douglas Street
Omaha, Nebraska 68102-1214

@OCKLE

L egal Briefs E-Mail Address:

Est i924 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-309

JAMES CARNEY, GOVERNOR OF DELAWARE,
Petitioner,
v.
JAMES R. ADAMS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR RESPONDENT
in the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 12044 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 20th day of February, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary *
Stato of Nebraska . 6 Colter Qudras- hh, Chir
My Commission Expires Nov 24, 2020 e

Notary Public Affiant 39386

 

 
